     Peace Corps
     Office of Inspector General




             Togo, West Africa




               Flag of Togo


Final Country Program Evaluation Report:
            Peace Corps/Togo

                                 September 2010
Final Program Evaluation Report:
        Peace Corps/Togo
                   IG-10-10-E




       ______________________________________________

                  Jim O’Keefe
   Assistant Inspector General for Evaluation




                September 2010
                            EXECUTIVE SUMMARY

Over 2,500 Peace Corps Volunteers have served the people of Togo since 1962. There
are currently four project sectors in Togo: Health, Environment, Education, and Small
Business Development. Peace Corps/Togo programs are well-established and managed
by experienced and motivated staff members. Peace Corps headquarters program support
staff is satisfied with the framework and status of the projects.

Peace Corps/Togo is successfully meeting the first goal of the Peace Corps mission – to
help the people of interested countries in meeting their need for trained men and women.
Volunteers are satisfied with their assignments and feel positive about accomplishing
their project goals and objectives. They frequently conduct secondary activities and
team-up for cross-sector projects. Volunteers report some challenges in identifying the
most appropriate counterpart to undertake their project activities, but they ultimately
develop good working relationships with counterparts who provide solid support to their
work activities and help facilitate community integration.

While the post does not face major obstacles or constraints in its program operations, our
evaluation identified several areas that could be improved to increase effectiveness. We
identified some limitations in how Volunteer sites are developed - particularly in regard
to counterpart selection; and we found that many communities do not provide housing for
Volunteers as required by project agreements. The post is not engaging in regular,
substantive communication with national ministry officials and its Project Advisory
Council activities are infrequent and not well-organized.

Training is a strong point of PC/Togo. Volunteers are satisfied with the effectiveness of
pre-service training and expressed high regard for the host family experience as good
preparation for service. We identified two areas where training could be improved: local-
language training and cross-cultural training sessions. Volunteers report that they are
generally well-supported by PC/Togo staff, but they flagged communication from
program staff as an area that needs improvement. They expressed satisfaction with the
quality of medical care and with safety and security support. However, we found that
Volunteers are not in compliance with PC/Togo’s out of site policy and Volunteer site
locator forms frequently contained inaccuracies, which would make them less useful
during an emergency situation.

PC/Togo’s fiscal year (FY) 2011-2013 Integrated Planning and Budget System (IPBS),
identifies strategies that address many of the issues that are identified in our evaluation,
and it provides post with a roadmap of practical improvements to increase the
effectiveness and efficiency of its operations. Our report contains 23 recommendations,
which, if implemented, should strengthen programming operations and correct the
deficiencies discussed in the accompanying report.




Final Country Program Evaluation Report: Peace Corps/Togo                                      i
                                                     Table of Contents


EXECUTIVE SUMMARY ................................................................................................. I

HOST COUNTRY BACKGROUND................................................................................. 1

PEACE CORPS PROGRAM BACKGROUND ................................................................ 1

EVALUATION RESULTS ................................................................................................ 3

PROGRAMMING .................................................................................................................... 3

TRAINING ........................................................................................................................... 15

VOLUNTEER SUPPORT ........................................................................................................ 18

MANAGEMENT CONTROLS ................................................................................................. 25

OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................... 28

INTERVIEWS CONDUCTED ........................................................................................ 29

LIST OF RECOMMENDATIONS .................................................................................. 32

APPENDIX A: MANAGEMENT'S RESPONSE TO THE PRELIMINARY REPORT

APPENDIX B: OIG COMMENTS

APPENDIX C: PROGRAM EVALUATION COMPLETION AND OIG CONTACT
                    HOST COUNTRY BACKGROUND

The nation of Togo, which is smaller than the state of West Virginia, is located in West
Africa along the Gulf of Guinea and borders Benin to the East, Ghana to the West, and
Burkina Faso to the North. Togo gained its independence from France in 1960, and in
1963 its president was killed in Africa’s first post-colonial coup d’état. Subsequently,
Togo was ruled by one president from 1967 until his death in 2005. His son became
president of Togo in April 2005 and remains in power. Democratic gains allowed Togo
to hold its first relatively free and fair legislative elections in 2007 and presidential
elections in March 2010.

Togo’s development needs are considerable. Togo was ranked 159 out of 182 countries
in the United Nations’ 2009 “Human Development Report.” Togo has a population of
6.5 million. Subsistence agriculture provides employment for 65 percent of the labor
force but traditional farming practices cannot meet the needs of Togo’s growing
population and are a cause of environmental degradation, poor soil fertility, and
decreasing forest resources. Additional food security issues were caused by rainy season
flooding in 2008 and 2009 and surges in global food and fuel prices.

The World Bank lists Togo’s average per capita income at about $360 and estimates that
62 percent of the population lives below the poverty line. Togo’s economy is growing at
a low rate and suffers from high unemployment and under-employment. HIV/AIDS
cases continue to increase, with an adult prevalence rate estimated at 3.3 percent in 2007,
despite efforts by the government of Togo to combat the disease. Other health problems
include high infant and maternal morbidity rates, infectious diseases, and poor health care
infrastructure.

According to the World Bank, Togo’s literacy rate in 2008 was 65 percent. The
secondary school enrollment rate in 2007 was 41 percent, with 44,000 school-age boys
and almost 100,000 school-age girls not enrolled in school. Rural areas of Togo are
further impacted by an exodus of literate and qualified Togolese and a poor quality
transportation system.



             PEACE CORPS PROGRAM BACKGROUND

In 1962 the Peace Corps arrived in Togo as part of a second wave of countries where the
Peace Corps began service. Since then, more than 2,500 Volunteers have served the
people of Togo for over 48 years of uninterrupted service. At the onset of this evaluation
there were 94 Volunteers serving in Togo. The Community Health and AIDS Prevention
(CHAP) and Small Enterprise Development (SED) training class of 30 trainees arrived in
June, 2010, after the conclusion of our visit, and a Girls’ Education and Empowerment



Final Country Program Evaluation Report: Peace Corps/Togo                                   1
(GEE) and Natural Resources Management (NRM) training class of 30 trainees is
scheduled to arrive in September 2010.

A more detailed explanation of the four project areas are discussed below:

   • Community Health and AIDS Prevention
   Volunteers in this project assist local health personnel and regional offices to promote
   community health and AIDS prevention activities. The project’s most important
   components are child growth monitoring and nutrition education, family planning
   education, education for sexually transmitted infections (STIs)/AIDS prevention, and
   improved dispensary management. The CHAP Project Advisory Council (PAC) met
   in January 2010 and developed a new CHAP Project framework, focusing on
   reproductive health and family planning education. The proposed framework is being
   piloted until a formal review which post expects to occur in February 2011. The
   project was last reviewed by the Office of Program and Training Support (OPATS) in
   2004.

   • Natural Resource Management
   In early 2005, the NRM project framework was drafted to focus Volunteer
   assignments on agroforestry and forestry techniques aimed at managing natural
   resources for current and future generations. The NRM project works with
   individuals, organizations, and communities on agroforestry techniques, stategic
   planning, and environmental education. The project collaborates with the ministries
   of agriculture and environment in meeting the targets for agroforesty and forestry set
   out in the work plan. More recently, agricultural productivity and food security have
   become a focus for the program. The NRM and SED projects collaborate to produce
   Farm to Market, a quarterly bilingual newsletter, targeted to the Volunteers and their
   counterparts, and circulated to other Peace Corps posts. The project was last
   reviewed by OPATS in 2005.

   • Small Enterprise Development
   Since 1991, Volunteers working in the SED sector have offered business training and
   consulting to members of credit unions, women’s informal savings groups, and youth
   and local nongovernmental organizations (NGOs). The goal of this project is to
   improve basic business and entrepreneurial skills and foster opportunities for growth
   and job creation in Togo’s small business sector. Workshops covering accounting,
   finance, marketing, and feasibility studies are offered to groups of tailors, retailers,
   merchants, market women, and other entrepreneurs. Information and communication
   technology (ICT) was added to this program in 2006. Volunteers advise and help
   entrepreneurs, trade associations, and NGOs (including credit unions) take advantage
   of ICT to improve management and extend outreach. The project was last reviewed
   by OPATS in 2007.

   • Girls’ Education and Empowerment
   In 1999, the post began implementation of the GEE program to respond to the need
   for education and improving opportunities for girls and women identified by former


Final Country Program Evaluation Report: Peace Corps/Togo                                 2
    Volunteers, their counterparts, and Togo government authorities. Volunteers work
    with local schools, institutions, and workplaces in rural and urban areas, to promote
    education among girls. Emphasis is given to encouraging girls to attend and stay in
    school and to make good choices about their future. The project plans to add the
    “Men as Partners” approach to the project plan to promote the involvement of boys
    and men in the transformation of gender roles. The project was last reviewed by
    OPATS in 2004.




                                 EVALUATION RESULTS

PROGRAMMING

The evaluation assessed to what extent the post has developed and implemented
programs to increase host country communities’ capacity. To determine this level of
capacity, we analyzed the following:

    •    The coordination between the Peace Corps and the host country in determining
         development priorities and Peace Corps program areas;
    •    Whether post is meeting its project objectives;
    •    Counterpart selection and quality of counterpart relationships with Volunteers;
    •    Site development policies and practices;
    •    Grant funding activities.

In our review of PC/Togo’s project goals and Volunteer productivity, we found no
significant areas of concern that would warrant action by the post. Eighty percent of the
Volunteers interviewed (16 of 20 Volunteers) report they are familiar with their project
goals and that they are successfully accomplishing project objectives. 1 The Volunteers
we interviewed report there is enough work for them in their sites and in their assigned
sectors. The post promotes cross-sector collaboration and most Volunteers report their
communities have many development needs across a range of program sectors. As a
result, many of the Volunteers perform a mix of primary and secondary activities and
collaborate with other Volunteers. Volunteers develop good working relationships with
counterparts, who support their work activities and facilitate community integration.

Staff members and Volunteers report site development weaknesses

Our evaluation identified concerns from staff and Volunteers regarding Volunteer work
site development that is conducted by programming staff members, particularly

1
  We interviewed a stratified judgmental sample of 21 percent of currently serving Volunteers (20
Volunteers) based on their length of service, site location, project focus, gender, age, and ethnicity.
Volunteers were asked to rate many items on a five-point scale (ex. 1 = not familiar, 5 = very familiar). For
the purposes of the data analysis, Volunteer ratings of “3” and above are considered favorable.


Final Country Program Evaluation Report: Peace Corps/Togo                                                  3
identifying appropriate counterparts. The country director (CD) and associate Peace
Corps directors (APCDs) identified selecting and preparing Volunteer work sites as one
of the biggest challenges for Peace Corps projects in Togo and an area where
programming staff need assistance.

All but one Volunteer in our sample of 20 Volunteers reported overall satisfaction with
their work site. However, many Volunteers reported that the counterparts selected for
them during the site development phase were too busy to work with or lacked the
appropriate motivation and interest in the project. Seven Volunteers (35 percent)
reported other issues with site development such as poor community awareness of the
Peace Corps mission or the absence of site reports from the previous Volunteer, a
valuable tool for community entry. In our review of the 2009 Peace Corps All Volunteer
Survey (AVS) we noted a number of suggestions from Volunteers for improving the site
development process, including:

       “Place volunteers with organizations that are actually working (yes, they do exist if staff
       took the time to look). Actually do site development and preparation.”

       “Slim down the number of Volunteers and focus more resources on developing sites and
       resources for Volunteers to use in developing their communities. Focus on quality of
       sites and not quantity of sites.”

       “I also feel that site development needs to be better for more posts, and that APCD's
       should be required to visit communities twice a year to help have a better idea of the
       problems PCV's are facing at the village level.”

       “Place Volunteers in communities that are motivated and can benefit from a Volunteer,
       better site development.”

Site development is a critical component to effective Volunteer service. The importance
of conducting thorough site development is explained in the 2004 PC/Togo “Site
Development Policy and Guidelines,” which state in part:

       It is crucial that the Volunteer's environment allows for the positive exchange of skills
       and abilities . . . It is therefore Peace Corps/Togo's responsibility to assure an effective
       site development process that places Volunteers in environments where their integration
       and output is maximized.

Discussions with APCDs highlighted one chief cause affecting the quality of site
development. APCDs reported that housing issues such as finding a contractor, shopping
for materials, and overseeing the quality of repair work take up an excessive amount of
time and significantly impact the quality of their site development. The CD
acknowledged that APCDs spend considerable time managing housing issues, which is
not a good use of their time. APCDs reported that more of their time should be focused
on meeting with project partners and program-related preparations. Their comments
included:

       “I need more time to develop a work plan that goes in the site description, a plan for the
       first three months for the Volunteer.”




Final Country Program Evaluation Report: Peace Corps/Togo                                             4
       “If I [take] less time to . . . upgrade the houses then I can focus time on discussing details
       of the project with partners.”

       “I will supervise the [housing repairman] but I can better use my time to work on
       programming aspect of the site, meeting with the counterparts and community members.”

Because all the required site development preparations have not been carried out by
programming staff members in advance of their arrival, Volunteers arrive at sites that
have not been fully vetted and prepared. This lack of preparedness created significant
project and integration challenges for some of the Volunteers we interviewed.

The post has developed several strategies to address site development weaknesses.
According to PC/Togo’s 2011-2013 IPBS, the post plans to establish a “Volunteer
Leader” program. Volunteer leaders are generally third year Volunteers authorized to
perform supervisory or other special duties and responsibilities in addition to their
involvement in Volunteer programs or activities. The CD is planning for Volunteer
leaders to assist programming staff by taking on some of the site development
responsibilities. Some Volunteers are currently utilized for site development but the CD
has found that effective Volunteer participation in future site development will require
more planning and consistency. Additionally, site development has been identified as a
main focus of the newly hired program assistant (PA), who was conducting site
development near the northern city of Dapaong, during our trip to the region. APCDs
report they are encouraged by the hiring of a PA but believe that additional PAs are
needed in order to support all four projects. An additional tool suggested by the CD
during our discussions is the use of a tracking sheet to detail all the follow-up for a new
site.

                We recommend:

                1. That the country director identify additional staff members
                   and Volunteer leader resources or develop new positions to
                   assist programming staff with site development.

                2. That the programming staff develop a tracking sheet to
                   monitor site development procedures and that staff
                   complete one for each prospective site in advance of the
                   arrival of the Volunteer.


Host communities are not contributing to support the cost of Volunteer housing

The quality of Volunteer housing is generally good, but the post faces constant problems
regarding the furnishing and upgrading of housing. APCDs report that host communities
frequently do not provide housing as stipulated in the project agreements signed with the
Ministry partners, or they provide housing that does not meet the posts’ expressed
standards. We found that APCDs do not have a consistent approach for verifying that




Final Country Program Evaluation Report: Peace Corps/Togo                                               5
communities and project partners have followed through with their commitments
regarding housing and upkeep.

The post has developed Volunteer housing standards that are applied to both urban and
rural housing. In the communities that cannot support Volunteer housing, PC/Togo either
pays rent or pays for repairs and upgrades to bring the housing up to standards.
According to the CD, the post spent over $10,000 for housing repairs and upgrades
during the 2009 calendar year. The FY 2011-2013 IPBS reports that “Community
contribution to PCVs’ sites is limited, and PC/Togo ends up paying for most of the
housing upgrades.”

Responsibilities for housing are defined in the post’s memoranda of understanding
(MOU) with host government agencies and in the Volunteer Request form used by the
staff members during site development. PC/Togo’s agreement with the Ministry of
Public Health states that it is the: “Obligation of Ministry of Public Health… to support
Volunteer housing.”

The agreement between PC/Togo & the Ministry of National Education states, “The
community will take charge of housing for Peace Corps Volunteers. The Ministry of
National Education and Peace Corps will collaborate in order to ensure that Volunteer
housing is appropriate.”

Before staff members conduct site development the community is expected to submit a
Volunteer Request Form, which establishes housing support expectations by asking the
community, “Are you ready to provide free housing to the Volunteer?” If a Volunteer’s
host community does not provide adequate housing, PC/Togo pays for housing and for
any needed repairs and upgrades. The administrative officer (AO) reported that in some
cases the repair and upgrade costs end up being higher in the long run than paying rent
for housing that meets the post’s standards. As mentioned previously, a compounding
effect is that APCDs spend a considerable amount of time addressing housing issues,
which results in less time spent at work sites educating communities about the Peace
Corps’ mission or meeting with potential counterparts and project partners. A further
ramification is that the requirement to furnish housing helps to create a sense of local
community responsibility for and investment in Volunteers and their work, which is key
to Volunteer community integration and to the spirit and goals of the Peace Corps
program. The CD and AO both acknowledged that post could do better at ensuring the
host government contributes to Volunteer housing.

It is the responsibility of the program APCD’s to ensure that communities provide
Volunteer housing. In urban areas, APCDs report that housing provided by the project
partner is not always available, which is why the agency often must pay rent for housing.
APCDs also report that communities frequently provide sub-standard housing, and when
asked to complete repairs and upgrades, the response is that they do not have the means
to do so.




Final Country Program Evaluation Report: Peace Corps/Togo                                   6
Despite the limitations of host communities, two of the APCDs we interviewed agreed
that communities need to be pressed more to provide housing that meets the Peace Corps’
standards. They commented that communities should provide housing as their
community contribution, and if they are unwilling or unable to provide housing, then
Volunteers should be placed elsewhere.

The FY 2011-2013 IPBS acknowledged the difficulty of some host communities to
contribute and came up with a management priority to solve these housing issues:

       Objective 2.4: Improve site development to ensure local community buy-in and PCV
       productivity….Standardize housing criteria and require partners to contribute more to
       housing.

As we previously noted, PC/Togo Volunteer housing standards are the same for rural and
urban placements, and some rural communities do not have housing that would meet post
standards. For example, traditional houses are constructed from earth and do not meet
the requirement that walls are plastered and in good repair. The AO reported that the
post is considering the development of separate housing standards for rural and urban
communities. The development of more appropriate criteria for rural housing should
improve the ability of rural communities to meet housing standards

               We recommend:

               3. That the post: 1) develop housing criteria that
                  reflects the appropriate differences in rural and
                  urban building standards, and; 2) ensure consistent
                  implementation of housing criteria by program
                  managers.

               4. That the country director and program managers
                  develop and implement a site development plan that
                  explores new community entries and increases
                  community and host-country support to Volunteer
                  housing.


Volunteers frequently replace ineffective counterparts, slowing the initial pace and
progress of their assignments

Program managers select Volunteer counterparts during the site selection process. More
than half the Volunteers in our sample told us they were not working with the
counterparts who were originally selected for them. Seven Volunteers reported that their
assigned counterpart was too busy with their primary job to devote sufficient time to the
Volunteer’s project. Five other Volunteers reported that their assigned counterparts lack
the appropriate motivation or interest to work with them. One Volunteer reported that
their assigned counterpart, who was caught stealing from the Volunteer, had been
identified by a previous Volunteer as a poor choice for a counterpart.


Final Country Program Evaluation Report: Peace Corps/Togo                                      7
The selection of more than one community member to assist the Volunteer during site
development is a best practice we have discussed in prior Office of Inspector General
(OIG) reports. Some posts employ an approach during site development where a
community contact is identified for an initial period when Volunteers arrive at their sites,
and then after a period of living in the community, Volunteers select their own primary
project partner. According to the 2004 PC/Togo Site Development Policy and
Guidelines, counterparts should be selected from partnering organizations and the
community should identify both a “primary contact person” and “the proposed
counterpart.” This information should be included on the Volunteer Request form. The
post’s guidance further states:

           Each identified site will ensure the existance of . . . An organization with which to
           establish and maintain the PCV/counterpart relationship. This organization... has a
           minimum of three workers involved. The organization understands and expresses a
           desire to put in place a PCV/counterpart to work with the Volunteer. Active/motivated
           personnel are attached to the organization.

Program staff members spend an inordinate amount of time on housing issues during site
development visits, and not enough time meeting with potential counterparts and
partners. This issue is compounded by the scarcity of viable counterparts in many
communities. According to the FY 2011-2013 IPBS, suitable Volunteer counterparts are
hard to identify due to the exodus of literate and qualified Togolese from rural areas.
Additionally, an APCD described his difficulty selecting counterparts in urban
communities because counterparts are more likely to expect a salary. APCDs reported
that in some communities it can be difficult to identify even one counterpart. These
conditions have resulted in an ineffective counterpart selection process and a slower
initial pace or progress by newly placed Volunteers. One APCD estimated that up to 25
percent of Volunteers will not have a counterpart available when they begin their
assignments.

In spite of these challenging conditions, Volunteers report that effective and appropriate
counterparts can ultimately be found in most communities, and they have been able to
identify counterparts once they are settled in their sites. Almost all the 20 Volunteers
interviewed reported they have found a primary counterpart to work with and Volunteers
reported a 100 percent favorability rating for the working relationships with their primary
counterparts, with an average response of 4.4 on a 5-point scale (1 = not at all, 5 = very
well). 2

In order to identify more appropriate counterparts during the site development stage, the
post’s guidelines for counterpart selection may need to be broadened and re-focused.
Volunteers initially need a guide to introduce them to the community, and personnel
attached to a partnering organization may not always be the best individual to guide the
Volunteer through the community integration process. Only after a Volunteer settles into
the community and develops project activities does the need for skilled partners and

2
    One Volunteer reported not being interested in having a primary counterpart.


Final Country Program Evaluation Report: Peace Corps/Togo                                          8
counterparts present itself. The FY 2011-2013 IPBS indicates that site development
should be improved by “selecting multiple work partners.” By using such a strategy –
selecting a range of potential partners including community guides and skilled
technicians – PC/Togo Volunteers should be better positioned and supported to engage in
meaningful work in the community.


                 We recommend:

                 5. That the post revise its Volunteer site development
                    guidelines to ensure: 1) a suitable contact person for
                    the Volunteer is identified at each site; and, 2) that
                    multiple Volunteer work partners are identified as
                    potential counterparts at each site.


PC/Togo does not engage in regular and effective communication with ministry
partners

PC/Togo program staff members reported in interviews that high-level ministry officials
are usually invited to various Peace Corps events, but on-going substantive contact with
them is not occurring with any regularity. The CD acknowledged a lack of consistency in
communication with PC/Togo’s ministry partners. In our interviews with them, with the
exception of the Ministry of Education, ministry officials were unable to demonstrate an
adequate understanding of the goals and activities of Volunteers. 3

The importance of regular, substantive communication with ministry partners is
underscored in Peace Corps’ Characteristics and Strategies of a High Performing Post:
Post Management Resource Guide, Part 6.4, “Communication with Host-Country
Government and Partner Agencies”:

        . . . There is much value to setting up a regular communications network with the
        counterpart agency (ministry, NGO, or community organization), so that consultation,
        exchange, and understanding take place on a steady basis, outside of the realm of special
        problems and crises. . . It is also both a protection and a support for Volunteers in the
        field who, if their supervising organizations are meeting and communicating on a regular
        basis, will receive much more coherent and consistent direction concerning the project’s
        objectives and activities.

MOUs are an additional tool for establishing and maintaining a dialogue and on-going
cooperation and involvement of host government partners. Peace Corps’ Characteristics
and Strategies of a High Performing Post: Post Management Resource Guide, Part 6.2,
“Memoranda of Understanding” points to the benefit of formal project agreements with
partner ministries:

3
  Ministry of Health officials were unfamiliar with the Peace Corps mission and development objectives
and repeatedly raised the topic of how the agency might furnish direct financial support during our
interview.


Final Country Program Evaluation Report: Peace Corps/Togo                                                9
       As a matter of both guidance and protection for the Volunteer, as well as for the Peace
       Corps and the partner agency, there needs to be a formal memorandum of understanding .
       …The MOU or agreement should clearly define the roles and responsibilities of the
       cooperating parties and serve as a basis and source of reference for the cooperative
       relationship established between the two (or more) parties.

Neither the NRM nor the SED projects have project agreements in place with their
respective partnering ministries. MOUs exist between PC/Togo and its CHAP and GEE
ministry partners, but they have not been revisited or updated since 2001. The project
agreement established between PC/Togo and the ministry of public health in 2001
signaled the importance of the ministry’s involvement in the program and states that it is
the “obligation” of the ministry, “. . . to ensure the supervision and the follow-up of the
activities of the project in collaboration with the management of the Peace Corps.”

Peace Corps has been operating in Togo for 48 years and staff members at the post report
that the agency is well-liked and respected by host country partners and participants. The
projects are well established and OPATS specialists reported few concerns regarding the
status of PC/Togo’s programming and training. These factors may have led to some
laxity with high-level partner communications. APCDs reported that they have more
contact with regional ministry representatives, rather than at the national level. The CD
reports that improvements in PC/Togo’s dialogue with host government partners is a
management priority supported by programming staff members.

The FY 2011-2013 IPBS includes objectives that aim to increase the government
of Togo, NGO, and host country national awareness of PC Togo’s
accomplishments and to form new partnerships and strengthen existing
relationships. At present, the lack of both substantive engagement with high-level
partners and active project agreements makes it difficult for post to ensure that
programming is aligned with host country interests and that partners know their
responsibilities and are fulfilling them. Without this, The Togolese ministries are
also unable to adequately perform their supervisory and collaborative obligations.

               We recommend:

               6. That the post establish a strategy and timeframe
                  with goals and milestones for completion of partner
                  development goals.

               7. That the post establish a strategy and timeframe
                  with goals and milestones for completion of new or
                  revised Memoranda of Understanding or project
                  agreements.


Program Advisory Council activities are infrequent and inconsistent




Final Country Program Evaluation Report: Peace Corps/Togo                                        10
As we have discussed, a number of the host ministry officials we met with were not well-
informed about Volunteer activities. Project Advisory Councils (PACs) have been
established for all projects. However, according to staff, beyond extending invitations to
Volunteer swearing in ceremonies, PAC involvement with program staff and the
Volunteers or ministry-level awareness of program activities, accomplishments and
challenges is minimal. The CD reported that PAC activities are not organized on a
calendar to ensure more regular meetings.

The GEE and CHAP PACs were organized in 2004 as a result of a recommendation
made in an OPATS project review and they conduct meetings every other year following
the in-service training program s for these sectors. The SED PAC was organized as a
result of a recommendation made in a 2007 OPATS project review and, according to staff
members, it last met in November 2008. A NRM PAC was involved with a project
framework review in 2006, but staff members report that it became inactive until the
recently appointed APCD organized a PAC meeting in March 2010.

According to Peace Corps’ “Programming and Training Booklet 2: How to Design or
Revise a Project,” PACS should include the participation of ministry-level and local
partners and Volunteers. In its description of PAC responsibilities and activities, the
booklet states:

       This committee would share responsibility (with the APCD and program managers) for research,
       design, assessment, and revision of the project. In the ideal situation, the advisory committee
       would provide support throughout the life of the project.

Program staff members cited budget constraints as one issue impacting the frequency of
PAC meetings. Additionally, they said that ministry officials and managers transition
frequently to different ministries, and there is no assurance that the ministries remain
informed of PC programs.

               We recommend:

               8. That the post develop an annual calendar of Project
                  Advisory Council activities, engage with ministry
                  personnel in regular project updates, and undertake
                  activities such as visits to Volunteer projects on a
                  regular basis.


The post did not advise Volunteers of the availability of Small Project Assistance funds
for water and sanitation projects

Expanding access to clean water and sanitation was identified in the FY 2011-2013 IPBS
as a development need in Togo that is not currently being addressed by Peace Corps. The
IPBS reported the availability of $23,000 in U.S. Agency of International Development
(USAID) Small Project Assistance (SPA) funding as a resource to meet this need. The



Final Country Program Evaluation Report: Peace Corps/Togo                                            11
funding for water and sanitation projects became available in November 2009. We found
that Volunteers were not notified of the availability of this grant funding until April 2010.

In interviews, Volunteers reported that they were either unaware of this funding
opportunity or had only learned about it in recent weeks. The Volunteer Information
Newsletters for October-December 2009 and January-March 2010 and the section titled
“SPA News” failed to provide information to Volunteers regarding the water and
sanitation funding. The post’s SPA coordinator reported he was not aware the funds
were available until March 2010. Volunteers were officially notified in the “SPA News”
section of the April-June 2010 newsletter and by a letter sent from the CD to all
Volunteers via post and email.

Peace Corps’ SPA Program Handbook states that:

       Posts must ensure that SPA guidelines, deadlines, and review procedures are effectively
       communicated to Volunteers. Effective means of communicating SPA information
       include distribution of informational pamphlets, inclusion of SPA updates and reminders
       in Volunteer newsletters, and scheduling SPA orientation sessions at PST or IST.

We determined that several factors led to confusion over the availability of the water and
sanitation SPA funds. The Partnership Development Unit (PDU) at headquarters, which
manages the SPA program, reported that SPA funding for water and sanitation projects
came from a different USAID office than usual, and the funds were allocated after the
post had already received its first quarter SPA allotment. The yearly SPA funding is
typically distributed quarterly in equal amounts, but the post’s FY10 SPA funding was
distributed quarterly in the amounts of $15,000, $10,000, and $20,000 through the third
quarter. The FY10 fourth quarter allotment is $23,500. This discrepancy caused
confusion at the post and delayed notification of the fund’s availability to Volunteers. As
a result, Volunteers were unable to develop strategies or conduct planning activities for
projects in the key development area of access to safe water and sanitation.

               We recommend:

               9. That the post review with headquarters’
                  Partnership Development Unit how Small Project
                  Assistance funding notifications are issued and
                  received, and institute any necessary changes to
                  ensure that Volunteers are informed of the
                  availability of funds.


Volunteers were advised not to return unused grant money

In interviews, two Volunteers reported that the SPA Coordinator advised them to
distribute grant funds that they had determined should be returned to post. In one
instance, a Volunteer revised a SPA project to become more efficient, and wanted to send



Final Country Program Evaluation Report: Peace Corps/Togo                                        12
the excess money back to be better used elsewhere. The Small Project Assistance (SPA)
Program Handbook states:

       In most instances, funds remaining at the end of the project should be returned to post.
       Volunteers or community organizations cannot use remaining funds to start new projects
       or to significantly expand the scope of the original project.

In another instance, a Volunteer had intended to cancel a Peace Corps Partnership
Program (PCPP) project and return the grant funding because the community failed to
follow through on their required contribution of at least 25 percent of the project cost.
The Peace Corps Partnership Volunteer Handbook states that a 25 percent minimum
community contribution is required and, if a project is cancelled, all unused funds must
be returned. Nonetheless, both Volunteers reported that the SPA Coordinator advised
them to use the funds in some other way rather than return them to the source.

Appropriate training and oversight of the grant process is particularly important in a
development environment such as Togo’s that has historically relied heavily on donor
aid, and where moving funding out to the community is considered a sign of success.
The CD and many Volunteers reported that a major cultural challenge is the perception
that Volunteers are expected to ‘hand out money.’ Volunteers’ comments included:

       “I think people feel that if they go along with me for long enough I'll eventually just give
       them a pile of money.”

       “We are above all . . . supposed to have money. They do like Americans here but they
       really lose interest in you if you don't have money . . . Any time I talk about a project all I
       hear is talk of money and the gifts. I don't know how to fix it.”

       “A major challenge I face is getting people to see that I am not a bank.”

As previously mentioned, Togo is ranked 159 out of 182 in the 2009 “Human
Development Report” by the UN and many Volunteer counterparts and partners are low-
wage earners. The FY 2011-2013 IPBS reports that, “In many cases, communities are
unable to make the required minimal contributions to support funded activities. Thus,
Volunteers are pressured to provide financial resources.”

The Peace Corps is one of the few development organizations in Togo that does not
distribute grant funds as its primary mechanism of support. As a result, a principal
obstacle for Volunteers is the perception that they are a source of financial support for
individual or community needs. Peace Corps grants are intended as a supplement to
sustainable community-initiated projects and one outcome to be avoided is a
community’s expectation for handouts. We commend the Volunteers cited in this finding
for their efforts to return unused funding and adhere to the goals of the grant programs
they were managing.




Final Country Program Evaluation Report: Peace Corps/Togo                                                13
                We recommend:

                10. That the post ensure all Small Project Assistance
                    and Peace Corps Partnership Program funds are
                    distributed and accounted for in accordance with
                    the appropriate guidelines.

                11. That the post provide training to all staff
                    responsible for management or oversight of the
                    Small Project Assistance program.


Funding received from the “Friends of Togo” organization does not conform to the
agency’s financial management requirements

Several Volunteers reported that grants for small projects are available through Friends of
Togo. In discussions regarding the management of Friends of Togo grants, the CD
reported that, in the past, small sums (under $400) received from Friends of Togo had not
conformed to administrative requirements.

Country directors are authorized to accept donations under certain circumstances, which
are elaborated in Peace Corps’ Overseas Financial Management Handbook, Section
21.1, “Authority to Accept Donations,” which states:

       Country Directors are authorized to accept:

           1.   Unconditional gifts of money or intangible personal property in local currency,
                not in excess of $5,000 (USDE) in value;
           2.   Conditional (if the only restriction by donor is use in the country) or
                unconditional gifts of tangible personal property with a market value not in
                excess of $5,000 (USDE); and
           3.   Conditional (if the only restriction by donor is use in the country) gifts of money
                or intangible personal property, not in excess of $5,000 (USDE).

       Donors who want to donate more than $5,000 in local currency (USDE), wish to make
       donations in USD or want to make donations for restricted purposes must be referred to
       the Office of Private Sector Initiatives.

The CD reported that the Friends of Togo organization is unable to deliver funds in the
local currency, a requirement for small donations delivered directly to the post. Thus far
the post has not accepted Friend of Togo funds under the Peace Corps Partnership
Program because the funding amounts are small. The CD reported she plans to contact
the Friends of Togo organization to develop a new system for funding projects.




Final Country Program Evaluation Report: Peace Corps/Togo                                             14
               We recommend:

               12. That the country director ensures funding for
                   Volunteer projects adheres to all agency financial
                   management and Peace Corps Partnership Program
                   requirements.
TRAINING

Another objective of the OIG country program evaluation is to answer the question,
“Does training prepare Volunteers for Peace Corps service?” To answer this question we
considered such factors as:

   •   Training adequacy
   •   Planning & development of the training life cycle
   •   Staffing and related budget

In reviewing PC/Togo’s Training Design and Evaluation (TDE) elements, we found that
the post has planned and implemented training according to the training criteria set forth
in the Director’s TDE Memorandum of November 2, 2006. In reviewing post’s training
adequacy, training life cycle, and training staffing, we found no significant areas of
concern that would warrant a recommendation for action by the post.

Nineteen out of 20 Volunteers in our sample rated the level of support from the training
manager above average or very supportive. Eleven Volunteers in the sample gave the
highest rating to their Pre-service Training (PST) host family experience, which had an
average rating of 4.4 on a 5-point scale (1 = poor, 5 = outstanding). Volunteers were
satisfied with the effectiveness of PST including the technical training element, which in
other OIG country program evaluations is frequently a common area of Volunteer
dissatisfaction. Language training was rated favorably by all the Volunteers in our
sample however comments from staff members and Volunteers indicate local-language
training is an area that could be improved.

Pre-service local language training does not equip Volunteers with basic
conversational language ability

While French language is used routinely in government offices and in larger urban
settings, it is spoken much less in the smaller, more rural Togolese communities where
the bulk of the Volunteers serve. Some local language training is provided to Trainees
during PST, but French is primary focus of the language training. As an added challenge,
there are over 40 local languages and dialects spoken in Togo, which makes it hard to
find qualified language trainers. As a result, most Volunteers arrive at their sites with
inadequate local language skills and are left to develop their own strategy to learn the
local language.



Final Country Program Evaluation Report: Peace Corps/Togo                                15
The CD and programming staff members identified local language training as an area that
needs improvement. The CD stated that, “Local language is key, it’s magic, [Volunteers]
have so much pull with people.” Several Volunteers also reported that knowledge of
their local language is essential to access their communities. Most Volunteers we
interviewed reported that there was not enough time devoted to local language training
during PST, and four Volunteers reported they received instruction in a language that is
not used at their site. We also noted that Volunteer comments about PST in the 2009
AVS included the following:

           “[Sic] ineffective local language instruction.”

           “Language training in Ewe was weak.”

           “Local language training only focused on the speech I had to give at swear-in.”

           “Again, more time [is needed] learning local languages.”

A proficiency in the language spoken in the host community has been a cornerstone of
successful Volunteer experiences. In fact, legislation establishing the Peace Corps states
that:
           No person shall be assigned to duty as a volunteer under this chapter in any foreign
           country or area unless at the time of such assignment he possesses such reasonable
           proficiency as his assignment requires in speaking the language of the country or area to
                                 4
           which he is assigned.

Peace Corps’ Characteristics and Strategies of a High Performing Post: Post
Management Resource Guide Part 1.1 on Philosophy and Vision states:

           Country directors themselves should have a clear idea of what the ‘Peace Corps
           philosophy’ is. The philosophy may be seen as consisting of a number of basic
           components, including . . . Learning the local languages.

Trainees are required to reach the intermediate-mid level proficiency in French, the
official language of Togo, before they swear in. Therefore, most Trainees are not able to
transition to local language instruction until the end of their pre-service training program.
The CD and staff members have considered several strategies to address this problem. A
longer training would be useful, but would add additional cost. Post has decided to
transition to a three-phase training model that will reduce the length and costs of PST.
The three phases include a shorter PST, continued learning at the Volunteer work site for
several months with a focus on needs assessments, and then a follow-up during the In
Service-Training (IST) program, with a focus on technical skills based on the needs
identified during the community assessment.

The post underwrites the cost of language lessons for Volunteers during service.
However, few of the Volunteers we interviewed were working with a tutor to develop
local language skills. To promote the development of local language skills the post could


4
    US Code, Title 22, Chapter 34 Peace Corps Act, Section 2521.


Final Country Program Evaluation Report: Peace Corps/Togo                                              16
encourage Volunteers to select a local language tutor soon after arrival at their site and
develop tools to aid Volunteers with the selection of effective tutors.

                We recommend:

                13. That the post provide more local language training
                    in pre-service training programs.

                14. That the post develops a ‘best practices’ tool to
                    guide the Volunteers through the process of
                    identifying tutors and engaging in local language
                    instruction at their sites.


Pre-service cross-cultural training does not prepare the Volunteers for many typical
challenges they face during service

Volunteers favorably rated their PST cross-cultural training. However, they find
the host family experience much more useful than the formal training sessions led
by the Peace Corps trainers. Volunteers reported that Togolese cross-cultural
trainers did not seem to understand the challenges Americans face in cross-
cultural integration very well. As a result, training sessions focused more on
gaining knowledge and awareness of Togolese culture, rather than teaching
trainees how to resolve some of the typical cross-cultural conflicts that Americans
living in Togo may encounter. Volunteers’ comments included:

       “They relied on the Togolese too much to explain the differences . . . The Togolese
       trainers don't understand American culture very well.”

       “… Training should focus more on how to react to cultural realities and not just on what
       to expect. What should our reactions be - what are appropriate cultural reactions to these
       cultural differences?”

       “Togolese trainers can't see the forest for the trees, the PCV trainers know what the
       Americans are thinking more. There was no conflict management – they would not teach
       us how to resolve situations.”

Some conflict is an unavoidable effect of cultural adjustment. Successful management of
conflicts is essential to community integration. According to the Peace Corps cross-
cultural workbook Culture Matters:

       The Peace Corps experience has a number of built-in dilemmas, but none more
       significant than the question of how one adjusts to a different culture and still maintains
       one’s own values, identity and self-respect.

Without more grounding in American attitudes and cultural norms, the host national
trainers will remain poorly equipped to offer coping or response strategies to the
everyday integration challenges that PC/Togo Volunteers frequently encounter.



Final Country Program Evaluation Report: Peace Corps/Togo                                            17
                We recommend:

                15. That the training manager increase the use of
                    experienced second year Volunteers to conduct
                    cross-cultural training sessions;

                16. That the Training of Trainers program include
                    skill-building on cross-cultural conflict
                    management.


VOLUNTEER SUPPORT

Our country program evaluation attempts to answer the question “To what extent has the
post provided adequate oversight and support to Volunteers?” To answer this question,
the evaluation assesses numerous factors, including: staff and Volunteer communications;
Medical Unit management; emergency preparedness; safety incident responses; site
visits; administrative support; and diversity support. In reviewing administrative support,
Medical Unit management and responses to safety incidents, OIG found no significant
areas of concern that would warrant OIG recommendations for action by the post.

The post is addressing Volunteer concerns about public transportation

Eight (40 percent) of the 20 Volunteers in our sample reported that the only time they feel
unsafe in Togo is while traveling in public transportation. This included five of six
Volunteers in the sample from the northernmost Savannah region. In addition to
Volunteer comments, the FY 2011-2013 IPBS stated concerns about the poor quality of
the transportation system which the evaluator confirmed through first-hand observations.
PC/Togo is providing options to reduce the use of public transportation or “bush taxis.”
The post operates a van - the “Lome Limo” - that travels roundtrip twice a month from
Lome to the northernmost region. Volunteers, their friends, and counterparts can make
reservations for a ride. Volunteers report the “Lome Limo” significantly increases their
sense of safety while traveling in Togo. Based on actions taken we are not making a
recommendation, but we encourage staff to monitor progress made addressing this issue.

Staff - Volunteer communications are being targeted for improvement by program staff

In interviews, more than half the sampled Volunteers from each of the four projects
reported dissatisfaction with communications from their APCDs. Volunteer comments
included:

       “It’s not that [APCD name] is not supportive - [APCD] is doing everything that is
       expected . . . but it’s very passive support. [APCD] is responsive to my support needs,
       but not proactive. I think [APCD] would be more proactive if [APCD] had more time.”

       “You have to call and call to get [APCD’S] support. It’s just a lack of time and attention
       and availability.”



Final Country Program Evaluation Report: Peace Corps/Togo                                           18
       “[APCD] won't seek you out . . . [APCD] will help me if I ask for help but [APCD] won't
       be proactive.”

       “[APCD] really cares about Togo and [this project] - but I go months without talking to
       [APCD]. [APCD] never asks.”

We found that proactive Volunteers are successful in gaining the attention of their APCD
and receiving the assistance they are seeking. However, less proactive Volunteers turn
elsewhere for support, typically other Volunteers or staff members. As a result, some
Volunteers do not experience regular, meaningful contact with their program APCDs and
feel unsupported; and conversely, APCDs are less aware of Volunteer conditions and less
capable of providing Volunteer support or effective project planning, monitoring, and
development.

Asked to rate staff support on a 5-point scale (1 = not at all, 5 = very well), the average
response for APCD support was 3.63, indicating a favorability rating of 77 percent. The
average response for other staff members in PC/Togo was 4.01, which is a favorability
rating of 90 percent (see table below).

               Table 1: Volunteer Responses on Perception of Support
       Area of Support             % Favorable (3,4,5)         Response Average
Country Director                67%                         3.38
APCD – NRM                      100%                        4.8
APCD – CHAP                     67%                         3.17
APCD – GEE                      75%                         3.8
APCD – SED                      67%                         2.75
Training Manager                95%                         4.45
Safety & Security Coordinator   92%                         3.83
Medical Unit                    100%                        4.5
Administrative Officer          94%                         3.93

The 2009 AVS indicates that 69 percent of Togo Volunteers were satisfied with their job
assignment support, somewhat lower than the global average of 78 percent. The 2009
AVS survey also demonstrated scores that were lower than global averages in four
questions rating Volunteer interactions with their APCDs: “Responsiveness to My
Issues”; “Informative Content”, “My Comfort Level Discussing Issues”, “Adequacy of
Visits.” Additionally, in comments included in the AVS, Volunteers reported their
APCDs failed to establish expectations of support. Volunteer comments included:

       “[APCD] has not done a good job of letting us know how we could use [APCD] support.
       I really don't know what APCDs do.”

       “We don't know what [APCD] does. [APCD] seems to be busy all the time.”

       “I know there are capacities I can tap into but I don't feel supported.”

The importance of APCD-Volunteer communications is clarified in Peace Corps’
Characteristics and Strategies of a High Performing Post: Post Management Resource


Final Country Program Evaluation Report: Peace Corps/Togo                                        19
Guide, Part 6.10, “APCD/PMs’ Communication with Other Sections and with
Volunteers” includes the following guidance regarding staff member-Volunteer
communication:

           [APCDs] must maintain solid and effective communications systems with the Volunteers
           in the field, in order to know the conditions, needs, performance, problems, and desires of
           the Volunteer population they are supposed to be guiding, supporting, and overseeing.

In our discussions on this subject, APCDs attribute the problem to a frequently
unmanageable volume of emails, text messages, phone calls, and walk-in appointments.
The CD acknowledged that the quality of communication from APCDs could be
improved and that APCD communications with Volunteers by email and text message are
not always substantive.

The post is responding to this problem. The CD reports that an initiative is underway for
program staff members to talk with each of their Volunteers at least once a month. This
initiative was identified as a management priority in the FY 2011-2013 IPBS. The CD
communicated this policy to Volunteers in the January-March 2010 Volunteer
Information Newsletter, which stated: “APCDs will also be making monthly calls to you
if they have not seen you at site, during an IST, or in the office.” The APCDs report that
they support this expectation and they are satisfied with this level of communication.
One APCD stated, “The Volunteers are so happy to hear from me – they are waiting for
me to call I can tell.” Programming staff report they track their communications both in
an Excel spreadsheet and in the Volunteer Information Database Application (VIDA)
database. The CD and most staff members report they favor the VIDA tracking system
for consistency. Based on actions taken we are not making a recommendation, but we
encourage staff to monitor progress made addressing these issues.

Staff feedback to Volunteer biannual reports has been brief and inconsistent

Volunteers in PC/Togo are required twice each year to submit performance reports
detailing their work activities. Peace Corps’ Programming and Training Booklet 5:
“How to Implement a Project” encourages programming staff to respond to each of these
periodic reports.

Five of the ten second-year 5 Volunteers in our interview sample reported that they had
submitted the required biannual report, but received no feedback at all from their APCD.
Programming staff members acknowledged that in recent reporting periods the feedback
they provide to Volunteers has been brief and inconsistent. Our review of the feedback
from the most recent reporting period (September 2009) revealed that most Volunteers
received an email confirming that their report had been received, but that responses
lacked substantive comments or suggestions regarding the Volunteer’s reported work
activities.



5
    First-year Volunteers had not yet submitted biannual reports for the reporting period of September 2009.


Final Country Program Evaluation Report: Peace Corps/Togo                                                 20
The CD agreed that the lack of report feedback left Volunteers with the impression that
the biannual reporting was not important. In order to change this attitude and improve
the quality of reporting, the CD has implemented an initiative to improve report feedback
and this has been included in the FY 2011-2013 IPBS as a management priority. The CD
is asking the APCDs to provide ‘timely feedback’ to each Volunteer and to compile a
sector summary report of the Volunteers’ activities. To establish this expectation among
all concerned, the CD wrote in the October-December 2009 “Volunteer Information”
newsletter, “It is also my expectation that APCDs will provide you with meaningful
feedback, which will enhance your performance and help you grow professionally.”

Implementation of this system will allow APCDs to develop a more proactive strategy for
each Volunteer’s support needs, which should help address other support issues raised in
our earlier finding. APCDs are supportive of this initiative and report they should be
able to provide individualized feedback responses to Volunteers within a time frame of
several weeks.

                 We recommend:

                 17. That the country director monitor biannual
                     Volunteer reporting to ensure: 1) that all Volunteers
                     meet reporting requirements; 2) that program staff
                     provide timely, substantive feedback to Volunteers.


Volunteers are not compliant with PC/Togo’s out of site policy

All Peace Corps posts are required to implement an effective “whereabouts policy” to
maximize the safety and security of Volunteers and Trainees. We asked the Volunteers
in our sample how often they reported being out of site. Only three of 18 Volunteers
reported their travel activities were in full compliance with PC/Togo’s out of site policy. 6

As shown in the table below, only 7 percent of Volunteers leaving their sites always
follow out of site reporting requirements, which is a significant safety and security
concern.

          Table 2: Volunteer Compliance with PC/Togo’s Out of Site Policy
      Compliance with out of site policy         PCV reporting percentage
    Never                                                   0%
    Rarely                                                 21%
    Sometimes                                              21%
    Most of the time                                       50%
    Always                                                  7%

PC/Togo’s whereabouts policy is clearly stated. According to the Volunteer Handbook:
6
 Of 20 Volunteer responses, two Volunteers reported that they have not traveled away from their sites
except when required by training and other official business.


Final Country Program Evaluation Report: Peace Corps/Togo                                               21
       All Volunteers must inform Peace Corps Togo beforehand of any overnight away from
       their site. This can now be done by sending text messages . . . if you plan to spend time
       out of your region or more than two days out of your site, excluding necessary travel
       time, get prior approval for work days or vacation time from your APCD.

We asked Volunteers why they did not report being away from their site. Six Volunteers
reported that they simply forgot to follow the out of site reporting guidelines when they
left their sites. However, five other Volunteers reported that they did not want staff
members to know how often they were out of site or where they were going. They
expressed concerns that their out of site text messages are screened by staff to monitor
their vacation days or assess the quality of their work performance. Their comments
include:

       “I guess it’s just a feeling, we're expected to be at post . . . to get a better percentage of
       reporting they should tell us that they don't expect us to be at post all the time.”

       “I'm not leaving my village to get away but if I texted all the time they might think I'm
       trying to get away from my village.”

       “I just feel that they will think I'm not working, I feel guilty.”

The CD recently made an effort to allay concerns and convince Volunteers to comply
with the policy to improve their safety and security. In the January-March 2009
“Volunteer Information” newsletter the CD wrote:

       We are not the vacation police. Our only intention is to know where all 100 PCVs are in
       case we need to mobilize you after a natural disaster, during civil unrest, or in the event
       of a personal emergency, etc. The bombings in Kenya and Tanzania in 1998 combined
       with the 2001 disappearance of a PCV in Bolivia (he is still missing.), September 11th,
       and the tsunami in Asia are events, which have changed the way Peace Corps operates.
       The elections are right around the corner and we want you to be safe and make sure that
       we operate as smoothly as possible.

In order to more directly address this issue and improve “whereabouts” reporting,
the post may need to send Volunteers additional bulletins and memos clarifying
the purpose and uses of the policy and engage in regular discussions of the
rationale for the policy during pre- and in-service trainings and conferences.

                We recommend:

                18. That the post issue additional supplementary
                    information and guidance to Volunteers (via
                    Volunteer newsletter, email, etc.) regarding the
                    purpose and importance of accurate out of site
                    reporting.




Final Country Program Evaluation Report: Peace Corps/Togo                                               22
Volunteer site locator forms were inaccurate and missing key information

Site locator forms (SLFs), also called emergency locator forms are an important
component of every Peace Corps post’s Emergency Action Plan (EAP). The key
information to include on SLF is detailed in Peace Corps’ Characteristics and Strategies
of a High Performing Post: Post Management Resource Guide, Part 11.8, “The Post
Emergency Action Plan,” which states in part:

           … maps to the Volunteer’s site and house, emergency communications means and
           contacts, possible modes of transportation, the nearest clinic, airfield, and police post, and
           various other site-related information.

PC/Togo’s EAP requires Volunteers to complete locator forms and update them
whenever changes occur to the contained information. As part of our evaluation, we
reviewed 17 7 SLFs for the 20 Volunteers in our interview sample. Six (35 percent) of the
17 SLFs we reviewed did not have accurate maps, and the evaluator was unable to locate
the Volunteers’ houses using the form alone. Another key component in the agency
guidance local police, contact information, was not included in the SLF template and was
missing from all of SLFs reviewed by the evaluator.

Our review of site visit reports for the 20 Volunteers in our sample showed no record of
staff reviewing SLFs for accuracy and completeness during their site visits. According to
PC/Togo’s site visit procedures, a review of SLFs should be conducted by staff members
during site visits to verify the accuracy of SLF information. The post’s EAP also requires
APCDs and the safety and security coordinator to review SLFs on a quarterly basis. The
accuracy and completeness of SLFs is vital to ensure Volunteers can be located without
undue delay in an emergency.


                    We recommend:

                    19. That the staff members thoroughly review site
                        locator forms for accuracy and completeness during
                        site visits and verify by signature that this action has
                        been accomplished.

                    20. That the site locator form template is revised to
                        include information on the police posts at each
                        Volunteer site.




7
    For scheduling reasons, the evaluator was unable to travel to three of the Volunteers’ houses.


Final Country Program Evaluation Report: Peace Corps/Togo                                                   23
PC/Togo is not meeting the diversity support needs of some Volunteers

In interviews, several Volunteers reported that Volunteer diversity issues have not been
adequately addressed and supported by staff or fellow PC/Togo Volunteers. Comments
from Volunteers included:

       “I really don't think the Volunteers relate to me, some of the white Volunteers on the
       [Volunteer Diversity Committee] even told me that they experience the same racism as
       me, which they don’t.”

       “The Volunteer Diversity Committee . . . they don't really know what to do, don't know
       how to react to diversity. They want to just say ‘we are all the same’ but we are not all
       the same.”

Staff members and Volunteers reported a diversity-related conflict that flared up among
several Volunteers in the Northern Savannah region during a joint Volunteer-counterpart
work project. In response to the incident, the CD met with Volunteers in the region to
seek information and resolve the situation. During our interviews with Volunteers, we
asked six Volunteers in the region about the incident and, while they expressed
appreciation for the CDs involvement, they reported on-going tensions among some
Volunteers, as well as tensions with staff members and the CD. Their comments
included:

       “There is a divisive dynamic now that was not there before.”

       “The CD has to operate along how things work in DC, but how things work here is
       different. It's contributed to feeling that you should be careful what you share with
       PC/Lome. We lean on each other . . . You rest on your group here and the group was
       fragmented as a result of [the incident.]”

       “I haven't been satisfied with the action [the CD] is taking with these issues.”

Volunteer diversity is a key component of the agency’s Strategic Plan for FY 2009-2014,
which aims to build a more diverse corps of Volunteers. Guidance related to supporting
diversity at posts is included in Peace Corps’ Characteristics and Strategies of a High
Performing Post: Post Management Resource Guide, Part 4.19 on “Diversity,” which
states:

       The post carries out specific activities to include, prepare, support, and properly represent
       various groups and help make them all—American and host country—full participants
       and positive contributors to the Peace Corps program and experience.

In our discussions with staff members, we learned that post aims to support Volunteer
diversity in a number of ways, including the Volunteer Diversity Committee and PST
sessions. An expectation of diversity support is established in the PC/Togo Welcome
Book, which states:




Final Country Program Evaluation Report: Peace Corps/Togo                                              24
           The Peace Corps staff as well as the Volunteer Diversity Committee will lead diversity
           and sensitivity discussions during pre-service training and will be on call to provide
           support, but the challenge ultimately will be your own.

While the Volunteer Diversity Committee may have been able to play a role in
supporting the CD to resolve the recent conflict situation in the Northern Savanna region,
staff members and Volunteers report that the Volunteer diversity committee stopped
functioning when the committee’s president was medically separated. The CD
recognized the need for additional diversity support and submitted a Field Assistance
Activity Request form (FAAR) for diversity training from OPATS’ cross-cultural and
diversity training specialist. Funding was not approved by the region and the post was
advised to resubmit the training proposal over the summer, 8 for a future training to take
place during FY 2011. However, this date may be too late to benefit those Volunteers
who feel most affected by this issue.

                   We recommend:

                   21. That the country director seek Volunteer and staff
                       support to re-establish the Volunteer Diversity
                       Committee.

                   22. That the Africa Region take steps in the near term
                       to support diversity training in PC/Togo delivered
                       by a qualified trainer.


MANAGEMENT CONTROLS

Another key objective of our country program evaluation is to assess the extent to which
post’s resources and agency support are effectively aligned with the post's mission and
agency priorities. To address these questions, we assess a number of factors, including
staffing; staff development; office work environment; collecting and reporting
performance data; and the post’s strategic planning and budgeting.

In reviewing staffing, office work environment and post’s strategic planning and
budgeting the OIG found no significant areas of concern that would warrant action by the
post.


Peace Corps/Togo’s early termination data for 2009 contains inaccuracies

At the end of the fiscal year the Peace Corps Office of Strategic Information, Research
and Planning (OSIRP) collects early termination (ET) data in compliance with the
Government Performance and Results Act (GPRA) annual reporting requirements. The
data can be useful in providing agency managers with an indirect measure of the quality

8
    The CD submitted another request to OPATS in June that is pending.


Final Country Program Evaluation Report: Peace Corps/Togo                                           25
of recruitment and placement and the management of country programs. A review of
PC/Togo’s ET data for FY 2009 revealed there were 16 medical separations, which, if
accurate, represents the highest rate globally. We asked the post’s Medical Unit to
review its medical separation data. The review determined there were only 10 medical
separations during FY 2009, indicating that six Volunteer resignations had been reported
inaccurately as medical separations.

The Office of Volunteer and Personal Services Contract Financial Services (CFO/VPS),
which is responsible for recording all Peace Corps Trainee/Volunteer personnel actions
such as terminations, was asked by OIG to review their records for FY 2009. Their
review identified two resignation cables received from PC/Togo that were recorded
incorrectly as medical separations. They also found one medical separation cable, which
PC/Togo should have filed as a resignation. The review was unable to account for three
of the six anomalies in the FY 2009 ET data. The Director of CFO/VPS reported there
could have been three additional resignation cables received from the post that were
recorded incorrectly as medical separations and later corrected but not before OSIRP
collected its data for the annual ET report. ET data is not corrected or revised following
OSIRP’s data collection and reporting. Therefore, the office of CFO/VPS should
determine how these five recording errors occurred and implement any necessary
corrective actions or training programs as warranted to improve the quality of the
agency’s ET data.

                 We recommend:

                 23. That Office of Volunteer and Personal Services
                     Contract Financial Services: 1) determine the cause
                     of PC/Togo reporting errors in the FY 2009 Early
                     Termination data; and, 2) implement corrective
                     actions or additional training as warranted.


Volunteers report issues with the qualitative reporting capacity of the Volunteer
Reporting Tool

As part of the annual Project Status Reporting (PSR) process, twice a year PC/Togo
Volunteers are required to submit performance reports using the electronic Volunteer
Reporting Tool (VRT). The performance data is reported to Peace Corps headquarters
and included in the agency’s Performance and Accountability Report (PAR), which
reflects Volunteers’ work to Congress and the American public. Fourteen Volunteers in
our sample reported a number of issues using the Volunteer Reporting Form (VRF),
including a lack of training. 9



9
  Seventeen Volunteers in our sample, both first-year and second-year, reported they have completed at
least one performance report and three first-year Volunteers reported they had not yet completed the
report at the time they were interviewed.


Final Country Program Evaluation Report: Peace Corps/Togo                                           26
Eleven (55 percent) Volunteers reported confusion about where to place certain activities
in the reporting form, including secondary activities. Volunteer comments included:

       “You have to pick a goal that each activity works towards and I don't think it’s clear, a lot
       of the goals are really specific and my activities are rarely that specific. I don't know
       where my work fits into the goals sometimes and we are only supposed to pick goals
       from our sector.”

       “I am organizing a computer camp, if it hasn't happened yet where do I put it in the VRF?
       Do I count the students yet or not? There are so many gray areas and I don't know where
       to put stuff.”

       “There are confusions with secondary projects, where do I put the information?”

       “There need to be more places to describe the project in the VRF when it doesn't fit in the
       categories.”

Five (25 percent) Volunteers were dissatisfied with the VRF’s perceived orientation
towards quantitative over qualitative data. Volunteer comments included:

       “It's discouragingly little that I have to fit into the quantitative sections - I know I
       shouldn't feel bad for not having a lot of numbers to put in - but I know that HQ is
       judging my performance on my numbers and not the qualitative aspect of my work.”

       “The VRF is capturing my activities but it doesn't really document the cultural exchange.
       It would be nice to have a section that asked us to document these activities to validate
       their importance.”

Second-year Volunteers reported more issues with performance reporting than first-year
Volunteers, indicating improvements have been made. Additional improvements are
warranted due to the importance of ensuring that Volunteers’ activities are aligned with
post and agency goals.

Post is responding to problems with performance reporting. The IT specialist reports he
is now providing Volunteers with two VRT trainings one during PST and another during
IST. APCDs reported space has been added to the VRF template to report secondary
activities. The CD issued a memo to Volunteers encouraging them to include qualitative
data in their reporting. The CD wrote:

       While the VRF asks for numbers, do not be consumed by them . . . We just want to hear
       your story. If you get a handful of people to adopt new behaviors, you are doing great!
       Document why that one woman started serving moringa to her kids at every meal.
       Analyze your failures. Those are where you will find the biggest lessons learned.

Based on actions taken we are not making a recommendation, but we encourage staff
members to monitor progress made addressing these performance reporting issues.




Final Country Program Evaluation Report: Peace Corps/Togo                                              27
           OBJECTIVES, SCOPE, AND METHODOLOGY

The purpose of the Office of Inspector General (OIG) is to prevent and detect fraud,
waste, abuse, and mismanagement and to promote economy, effectiveness, and efficiency
in government. In February 1989, the Peace Corps OIG was established under the
Inspector General Act of 1978, as amended, and is an independent entity within the Peace
Corps. The Inspector General (IG) is under the general supervision of the Peace Corps
Director and reports both to the Director and Congress.

The Evaluation Unit within OIG provides senior management with independent
evaluations of all management and operations of the Peace Corps, including overseas
posts and domestic offices. OIG evaluators identify best practices and recommend
program improvements to comply with Peace Corps policies.

The Evaluation Unit announced its intent to conduct an evaluation of PC/Togo on
January 29, 2010. For post evaluations, we use the following researchable questions to
guide our work:

•   To what extent has the post developed and implemented programs to increase host
    country communities' capacity?
•   Does training prepare Volunteers for Peace Corps service?
•   Has the post provided adequate support and oversight to Volunteers?
•   Are the post’s resources and agency support effectively aligned with the post’s
    mission and agency priorities?

The evaluation team conducted the preliminary research phase of the evaluation from
February 1-March 19, 2010. This phase included a review of agency documents
provided by headquarters and post staff members, interviews with management staff
members representing the region and OPATS, and inquiries to the offices of Safety and
Security, OMS, OPSI, and VRS. In-country fieldwork occurred March 22-April 9, 2010,
and was comprised of interviews with post senior staff members in charge of
programming, training, and support; U.S. Embassy officials and host country government
ministry officials. In addition, we interviewed a stratified judgmental sample of 21
percent of currently serving Volunteers based on their length of service, site location,
project focus, gender, age, and ethnicity.

This evaluation was conducted in accordance with the Quality Standards for Inspections,
issued by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). The
evidence and findings provided in this report have been reviewed by agency stakeholders
affected by this review.




Final Country Program Evaluation Report: Peace Corps/Togo                                28
                             INTERVIEWS CONDUCTED

As part of this post evaluation, interviews were conducted with 20 Volunteers, 12 in-
country staff members, and 23 representatives from Peace Corps headquarters in
Washington D.C., the U.S. Embassy in Togo, and key ministry officials.

Nineteen Volunteers were initially identified as part of the interview sample 10. Volunteer
interviews were conducted using a standardized interview questionnaire, and Volunteers
were asked to rate many items on a five-point scale (1 = not effective, 5 = very effective).
The analysis of these ratings provided a quantitative supplement to Volunteers’
comments, which were also analyzed. For the purposes of the data analysis, Volunteer
ratings of “3” and above are considered favorable. In addition, 17 of 20 Volunteer
interviews occurred at the Volunteers’ homes, and we inspected these homes using post-
defined site selection criteria. The period of review for a post evaluation is one full
Volunteer cycle (typically 27 months).

The following table provides demographic information that represents the entire
Volunteer population in Togo; the Volunteer sample was selected to reflect these
demographics.

                          Table 3: Volunteer Demographic Data
                   Note: Percentages may not total 100% due to rounding.
                                                           Percentage of
                              Project
                                                             Volunteers
              Health                                            24%
              Education                                         29%
              Small Enterprise Development                      22%
              Natural Resource Management                       24%
                                                           Percentage of
                              Gender
                                                             Volunteers
              Female                                            64%
              Male                                              36%
                                                           Percentage of
                                Age
                                                             Volunteers
              25 or younger                                     70%
              26-30                                             22%
              31-54                                             06%
              55 and over                                       01%
                Source: PC/Togo Volunteer roster, February 2010.

10
  There were 20 total Volunteers in the final sample: three selected Volunteers were unavailable for an
interview and replaced, two additional Volunteers requested an interview, and one Volunteer was not at site
on the scheduled interview date.


Final Country Program Evaluation Report: Peace Corps/Togo                                               29
At the time of our field visit, PC/Togo had 25 staff positions, one of which was vacant.
The positions included 2 U.S. direct-hire employees (USDH), 4 foreign-service nationals
(FSN), and 19 personal services contractors (PSC). The post also employs temporary
staff/contractors to assist with PST. Given the time of our visit, these positions were not
staffed. We interviewed 12 staff members.

             Table 4: Interviews Conducted with PC/Togo Staff Members
                          Position                     Status    Interviewed
      Country Director                               USDH             X
      APCD/NRM                                       PSC              X
      APCD/HE                                        FSN              X
      APCD/ED                                        FSN              X
      APCD/SED                                       PSC              X
      Administrative Officer                         USDH             X
      Program Assistant                              PSC              X
      Training Manager                               PSC              X
      Training Secretary (vacant)                    PSC
      PCMO                                           USPSC            X
      PCMO                                           PSC
      Medical Secretary                              PSC
      Safety & Security Coordinator                  PSC              X
      IT Specialist                                  PSC              X
      Volunteer Liaison                              FSN              X
      Program Secretary/IRC Coordinator              PSC
      Executive Assistant                            PSC
      Secretary/Receptionist                         PSC
      Administrative Assistant                       PSC
      Cashier                                        FSN
      General Services Manager                       PSC
      General Services Assistant/Motor Pool (4       PSC
      drivers)
      General Services Assistant/Maintenance         PSC
      General Services Assistant/Logistics           PSC
      Guard Force Commander (36 Local PSC Guards) PSC
       Data as of March 2010.

Twenty three additional interviews were conducted during the preliminary research phase
of the evaluation, in-country fieldwork and follow up work upon return to Peace Corps
headquarters in Washington, D.C.




Final Country Program Evaluation Report: Peace Corps/Togo                                30
      Table 5: Interviews Conducted with PC Headquarter Staff Members and
                     Embassy and Key Ministry Officials
                        Position                          Organization
    Acting Regional Director                       PC/Headquarters
    Acting CHOPS                                   PC/Headquarters
    Chief Administrative Officer                   PC/Headquarters
    Regional Program & Training Specialist         PC/Headquarters
    Country Desk Officer                           PC/Headquarters
    Regional Safety & Security Desk Officer        PC/Headquarters
    Program & Training Specialist (Health)         PC/Headquarters
    Program & Training Specialist (Env/Ag)         PC/Headquarters
    Program & Training Specialist (SED)            PC/Headquarters
    Program & Training Specialist (Education)      PC/Headquarters
    Partnership Development Program Specialist     PC/Headquarters
    Director of Volunteer & PSC Services           PC/Headquarters
    Peace Corps Safety & Security Officer          PC/Headquarters
    Deputy Chief of Mission                        U.S. Embassy in Togo
    Regional Security Officer                      U.S. Embassy in Togo
    Assistant Regional Security Officer            U.S. Embassy in Togo
    Cabinet Director                               Ministry of Environment &
                                                   Forestry Resources
    Coordinator, Savings & Loan Regulatory Dept.   Ministry of Finance
    Managing Director of Health                    Ministry of Health
    Division Chief of Community Health             Ministry of Health
    Cabinet Director, Primary & Secondary School   Ministry of Education
    Education & Literacy
    Director, Education in Matters of Environment, Ministry of Education
    Population, & Health
    Preschool Inspector, Primary & Secondary       Ministry of Education
    School Education & Literacy
      Data as of March 2010.




Final Country Program Evaluation Report: Peace Corps/Togo                      31
                     LIST OF RECOMMENDATIONS

WE RECOMMEND:

   1. That the country director identify additional staff members and Volunteer leader
      resources or develop new positions to assist programming staff with site
      development.

   2. That the programming staff develop a tracking sheet to monitor site development
      procedures and that staff complete one for each prospective site in advance of the
      arrival of the Volunteer.

   3. That the post: 1) develop housing criteria that reflects the appropriate differences
      in rural and urban building standards, and; 2) ensure consistent implementation of
      housing criteria by program managers.

   4. That the country director and program managers develop and implement a site
      development plan that explores new community entries and increases community
      and host-country support to Volunteer housing.

   5. That the post revise its Volunteer site development guidelines to ensure: 1) a
      suitable contact person for the Volunteer is identified at each site; and, 2) that
      multiple Volunteer work partners are identified as potential counterparts at each
      site.

   6. That the post establish a strategy and timeframe with goals and milestones for
      completion of partner development goals.

   7. That the post establish a strategy and timeframe with goals and milestones for
      completion of new or revised Memoranda of Understanding or project
      agreements.

   8. That the post develop an annual calendar of Project Advisory Council activities,
      engage with ministry personnel in regular project updates, and undertake
      activities such as visits to Volunteer projects on a regular basis.

   9. That the post review with headquarters’ Partnership Development Unit how Small
      Project Assistance funding notifications are issued and received, and institute any
      necessary changes to ensure that Volunteers are informed of the availability of
      funds.

   10. That the post ensure all Small Project Assistance and Peace Corps Partnership
       Program funds are distributed and accounted for in accordance with the
       appropriate guidelines.


Final Country Program Evaluation Report: Peace Corps/Togo                                  32
   11. That the post provide training to all staff responsible for management or oversight
       of the Small Project Assistance program.

   12. That the country director ensures funding for Volunteer projects adheres to all
       agency financial management and Peace Corps Partnership Program
       requirements.

   13. That the post provide more local language training in pre-service training
       programs.

   14. That the post develops a ‘best practices’ tool to guide the Volunteers through the
       process of identifying tutors and engaging in local language instruction at their
       sites.

   15. That the training manager increase the use of experienced second year Volunteers
       to conduct cross-cultural training sessions;

   16. That the Training of Trainers program include skill-building on cross-cultural
       conflict management.

   17. That the country director monitor biannual Volunteer reporting to ensure: 1) that
       all Volunteers meet reporting requirements; 2) that program staff provide timely,
       substantive feedback to Volunteers.

   18. That the post issue additional supplementary information and guidance to
       Volunteers (via Volunteer newsletter, email, etc.) regarding the purpose and
       importance of accurate out of site reporting.

   19. That the staff members thoroughly review site locator forms for accuracy and
       completeness during site visits and verify by signature that this action has been
       accomplished.

   20. That the site locator form template is revised to include information on the police
       posts at each Volunteer site.

   21. That the country director seek Volunteer and staff support to re-establish the
       Volunteer Diversity Committee.

   22. That the Africa Region take steps in the near term to support diversity training in
       PC/Togo delivered by a qualified trainer.

   23. That Office of Volunteer and Personal Services Contract Financial Services: 1)
       determine the cause of PC/Togo reporting errors in the FY 2009 Early
       Termination data; and, 2) implement corrective actions or additional training as
       warranted.



Final Country Program Evaluation Report: Peace Corps/Togo                                  33
APPENDIX A



                   MANAGEMENT’S RESPONSE TO
                    THE PRELIMINARY REPORT




Memorandum
To:           Kathy Buller, Inspector General
Through:      Daljit K. Bains, Chief Compliance Officer
From:         Dick Day, Africa Regional Director

Date:         September 20, 2010

CC:           Carolina Cardona, Peace Corps Togo Country Director
              Stacy Rhodes, Chief of Staff
              Joaquin Ferrao, Deputy Inspector General
              Esther Benjamin, Director of Global Operations
              Lynn Foden, Africa Region CHOPS
              Joe Hepp, Chief Financial Officer
              Thomas Bellamy, Deputy Chief Financial Officer
              Kari Abood, Director of Volunteer and PSC Services
Subject:      Response to the Preliminary Country Program Evaluation Report: Peace
              Corps/Togo – August 2010



Enclosed please find the Region’s response to the recommendations made by the
Inspector General for Peace Corps/Togo.

Post’s responses have been reviewed and integrated into this response. Region will
continue to work with post to ensure full implementation of the OIG recommendations.
The Region and post concur with 22 recommendations and the Office of Volunteer and
PSC Financial Services concurs with the one recommendation assigned to the CFO’s
office.
APPENDIX A



Attached, please find our responses to the Preliminary Report on Peace Corps/Togo.
Please let the Region know if you have any questions or comments on the responses.
Region will greatly appreciate your guidance and support as actions taken to respond to
the recommendations are fully implemented.



Response to the August 2010 Preliminary Report of the Office of Inspector General
Program Evaluation of Peace Corps/Togo

1: That the country director identifies additional staff members and Volunteer
leader resources or develop new positions to assist programming staff with site
development.
       Concur: Post has started a Peace Corps Volunteer Leader (PCVL) program and
       two PCVLs have been selected. The training of PCVLs will begin Oct 2010 and
       they will assist staff with site development. The Africa Region has also approved
       the hiring of two regional coordinators via the FY2011 Operations Plan for Peace
       Corps Togo to assist with site development.
       Documents included: Post will submit the PCVL Approval email from the RD
       and the FY11 Togo Operations Plan indicating that the Regional Coordinator
       positions have been funded.
       Date of Completion: September 2011

2: That the programming staff develop a tracking sheet to monitor site development
procedures and that staff complete one for each prospective site in advance of the
arrival of the Volunteer.

       Concur: Community Health and AIDS Prevention (CHAP) APCD will develop
       a tracking sheet. Natural Resources Management (NRM) and Girls Education and
       Empowerment (GEE) APCDs who are currently in PST will start to implement it.
       Small Enterprise Development (SED) and CHAP APCDs will use this tracking
       sheet in 2011.
       Documents to be submitted: Post will submit the site development tracking
       sheet.
       Date for Completion: November 2010

3: That the post: 1) develop housing criteria that reflects the appropriate differences
in rural and urban building standards, and; 2) ensure consistent implementation of
housing criteria by program managers.
       Concur: Post will hold a meeting with key parties to develop criteria and the
       PTO, who will provide over-site and management of program managers, will
APPENDIX A


       ensure consistent implementation of housing criteria. Post was recently given
       approval to hire a HCN Programming and Training Officer (PTO).
       Documents to be submitted: Post will submit the housing criteria and report on
       the meeting with the APCDs.
       Date for Completion: December 2010


4: That the country director and program managers develop and implement a site
development plan that explores new community entries and increases community
and host-country support to Volunteer housing.
       Concur: CD and APCDs have discussed housing strategy and ways to have more
       community support. GEE and NRM APCDs have begun efforts. APCDs
       recognize the need to start site development early. A formal plan will be drafted
       by December 2010.
       Documents to be submitted: Post will submit the copy of the site development
       plan.
       Date for Completion: December 2010.

5: That the post revise its Volunteer site development guidelines to ensure: 1) a
suitable contact person for the Volunteer is identified at each site; and, 2) that
multiple Volunteer work partners are identified as potential counterparts at each
site.
       Concur: The PTO, in conjunction with the APCDs, will create a site development
       template. APCDs will identify at least two counterparts. The PTO will review the
       description of each site and the number of counterparts identified for each new
       PCV.
       Documents to be submitted: Post will submit the site development template
       which identifies suitable contact people for each Volunteer as well as multiple
       partners and potential counterparts.
       Date for Completion: November 2010

6: That the post establish a strategy and timeframe with goals and milestones for
completion of partner development goals.
       Concur: Post plans to hire a HCN PTO in Oct 2010. This individual will work
       with CD and APCDs to develop a strategy for enhancing its relationship with
       ministries and NGOs. CD and appropriate APCD will go visit ministries and
       NGOs to market PC/Togo.
       Documents to be submitted: Post will submit a strategy and timeframe with
       goals and milestones for completion of partner development goals.
       Date for Completion: December 2010
APPENDIX A



7: That the post establish a strategy and timeframe with goals and milestones for
completion of new or revised Memoranda of Understanding or project agreements.
       Concur: PTO and APCDs will develop strategy for completing and revising
       MOUs.
       Documents to be submitted: Post will submit a strategy and timeframe with
       goals and milestones for completion of new or revised MOUs or project
       agreements.
       Date for Completion: December 2010

8: That the post develop an annual calendar of Project Advisory Council activities,
engage with ministry personnel in regular project updates, and undertake activities
such as visits to Volunteer projects on a regular basis.

       Concur: PTO will coordinate an annual partner meeting and will work with
       APCDs and develop an annual report, which will be distributed to partners. As
       part of Post’s strategy (Recommendation #6) for enhancing its relationship with
       ministries and NGOs, the CD/PTO and appropriate APCD will visit and/or call
       key ministry contacts quarterly.
       Documents to be submitted: Post will submit an annual calendar of PAC
       activities.
       Date for Completion: December 2010

9: That the post review with headquarters’ Partnership Development Unit how
Small Project Assistance funding notifications are issued and received, and institute
any necessary changes to ensure that Volunteers are informed of the availability of
funds.
       Concur: Post has moved to a monthly newsletter and the Togo’s SPA
       Coordinator provides PCVs with monthly updates as to the amounts and types of
       funds available.
       Documents included: August and September Volunteer Newsletter, email to
       PCVs.
       Date of Completion: August 2010

10: That the post ensure all Small Project Assistance and Peace Corps Partnership
Program funds are distributed and accounted for in accordance with the
appropriate guidelines.

       Concur: In May and June 2010 the CD and OPSI’s PCPP Program Specialist
       (Africa) discussed the Manual Sections (MS720.3.3 & MS 204.3.8) that provide
       the guidance on gift acceptance for PCVs. Post will host OPSI’s PCPP Program
APPENDIX A


       Specialist, September 23-27, 2010, and she will conduct a training with staff who
       work with SPA and PCPP funds.
       Documents to be submitted: A report of the training conducted by OPSI PCPP
       Program Specialist.
       Date for Completion: September 2010

11: That the post provide training to all staff responsible for management or
oversight of the Small Project Assistance program.

       Concur: This information will be provided during the OPSI visit and training
       during September 23-27, 2010
       Documents to be submitted: A report of the SPA training.
       Date for Completion: September 2010

12: That the country director ensures funding for Volunteer projects adheres to all
agency financial management and Peace Corps Partnership Program requirements.

       Concur: Post has closed its Friends of Togo (FOT) bank account. Post will not
       accept funds until it can identify a way to adhere to agency requirements. In May
       and June 2010 the CD and OPSI’s PCPP Program Specialist (Africa) discussed
       the Manual Sections (MS720.3.3 & MS 204.3.8) that provide the guidance on gift
       acceptance for PCVs. Post will host OPSI’s PCPP Program Specialist and she will
       conduct a training with staff who work with SPA and PCPP funds, September 23-
       27, 2010.
       Documents included: A copy of email that documents Friends of Togo bank
       account has been closed.
       Date of Completion: September 2010.

13: That the post provide more local language training in pre-service training
programs.

       Concur: Post agrees that PCVs need to have more local language training. Post
       believes the best path forward for training volunteers in local languages is for
       volunteers to first have a solid understanding of French. Given that Togo is a
       multilingual country, most PCVs cannot learn French and a local language at the
       same time. Togo will be part of a new 4 week French immersion training pilot in
       FY11. This training will allow PCVs to engage longer in PST with basic French,
       enabling them to begin local language training at site. Post plans to conduct
       additional local language training during ISTs and APCDs will encourage PCVs
       to use funds to find local language tutors.
       Documents to be submitted: Post will submit a Copy of the IST schedule and a
       newsletter article, encouraging local language tutoring.
APPENDIX A


       Date for Completion: December 2010

14: That the post develops a ‘best practices’ tool to guide the Volunteers through the
process of identifying tutors and engaging in local language instruction at their sites.

       Concur: TM will contact other training managers and HQ’s Language & Cross
       Cultural Specialist for best practices on tutoring. This info will be shared with
       PCVs during IST and PCTs during PST.
       Documents to be submitted: Post will submit a copy of the best practices tool.
       Date for Completion: November 2010


15: That the training manager increase the use of experienced second year
Volunteers to conduct cross-cultural training sessions.

       Concur: TM has met with NRM and GEE PCV trainers and set up a schedule for
       integrating cross cultural training into the Sept-Nov 2010 PST.
       Document included: schedule of cross-cultural training sessions.
       Date for Completion: September 2010


16: That the Training of Trainers program include skill-building on cross-cultural
conflict management.

       Concur: TM will meet with Regional Advisor Kris Hoffer who has a background
       in conflict resolution and will request session designs, which will be included in
       the next TOT.
       Documents to be submitted: Post will submit a copy of the cross-cultural
       conflict training design.
       Date for Completion: January 2011


17: That the country director monitor biannual Volunteer reporting to ensure: 1)
that all Volunteers meet reporting requirements; 2) that program staff provide
timely, substantive feedback to Volunteers.

       Concur: PC Togo has a biannual reporting system. Since her arrival in August of
       2009, CD has made biannual reporting a priority and has noticed a shift in on time
       reporting from the PCVs and feedback time from the APCDs. In October 2009,
       99%, of PCVs submitted their work reports, although many of them were late. In
       April 2010, 99% of PCVs submitted their reports in a timely manner.
       On both occasions, APCDs provided PCVs with individual feedback and group
       feedback. For the first response in October 2009, the APCDs were late in
       providing feedback. In April 2010, APCDs provided their PCVs with feedback
APPENDIX A


       within approximately 5 weeks of receiving their reports. With a renewed focus on
       biannual Volunteer reporting and staff feedback, the CD is confident that
       reporting requirements will continue to be met.
       Documents to be submitted: 1) Post will give a list of Volunteers verifying that
       PCVs have completed reporting requirements. 2) Post will provide copies of
       sample feedback.
       Date for Completion: September 2010

18: That the post issue additional supplementary information and guidance to
Volunteers (via Volunteer newsletter, email, etc.) regarding the purpose and
importance of accurate out of site reporting.

       Concur: The CD put another article in the September newsletter and she also
       spoke to PCVs about the issue at the mid-service conference and surveyed the
       PCVs about the policy. Most common reason for not reporting was, “We forget.”
       “Keep reminding us” was their suggestion.

       Documents included: September Volunteer Newsletter, Mid Service Conference
       Evaluation Form.
       Date of Completion: August 2010

19: That the staff members thoroughly review site locator forms for accuracy and
completeness during site visits and verify by signature that this action has been
accomplished.

       Concur: SED and CHAP Volunteers went to their sites in August and the staff
       will be making visits within the next few months. Whenever a staff member goes
       to a Volunteer site, he or she will take the site locator form and will follow its
       directions. If it is inaccurate or hard to follow, the form will have to be redone by
       the PCV and if the form is accurate, the staff member will sign-off on it.

       Documents to close recommendation: Signature page on site locator forms.
       Date for Completion: November 2010


20: That the site locator form template is revised to include information on the
police posts at each Volunteer site.

       Concur: Post will update the site locator form and ensure that each PCV puts info
       about the police posts at post.

       Documents to be submitted: Post will submit the site locator template.
       Date for Completion: October 2010
APPENDIX A



21: That the country director seek Volunteer and staff support to re-establish the
Volunteer Diversity Committee.

       Concur: The CD advertised for diversity committee members in the August
       newsletter, and recruited PCVs at mid-service. Post will conduct a Training of
       Trainers, TOT, with 6 PCVs and 5 staff. PCVs and staff will conduct sessions at
       PST and IST related to diversity and staff will participate in diversity sessions as
       well.

       Documents included: August Volunteer newsletter
       Date for Completion: September 2010


22: That the Africa Region take steps in the near term to support diversity training
in PC/Togo delivered by a qualified trainer.

       Concur: The CD had requested that one of Africa’s Regional Advisor, Kris
       Hoffer, come to post and conduct the training, which was held Sept. 13-14.

       Documents included: Diversity Training TOT Outline and Diversity Workshop
       Facilitators Summary.
       Date for Completion: September 2010

23: That Office of Volunteer and Personal Services Contract Financial Services: 1)
determine the cause of PC/Togo reporting errors in the FY 2009 Early Termination
data; and, 2) implement corrective actions or additional training as warranted.

       Concur: CFO/VPS concurs with the recommendation.

       Regarding part 1 of the recommendation, at the time of the investigation follow-
       up in April 2010, CFO/VPS did all possible research; there is no new information
       to be gained.

       OSIRP reported 16 Medical Separations on September 30, 2009. During the
       program evaluation, PC/Togo reported 10 Medical Separations for FY 2009.
       When CFO/VPS was asked for the same number, the result from HRMS was 13
       Medical Separations. At this time in April 2010, the Director of VPS received the
       names of the 10 Volunteers who Post reported had medically separated. She
       cross-referenced the list from Post with the HRMS listing of Medical Separations
       and came to the following conclusion, which was reported back to the IG:

          •   H Moser - Documentation sent from Post indicated it was a SEP-ET, which is a
              resignation. It was a data entry error by a VPS staff member.
          •   K Smith - Documentation sent from Post indicated it was a SEP-ET, which is a
              resignation. It was a data entry error by a VPS staff member.
APPENDIX A


     •   C Bradt – Documentation sent from Post clearly states it is a Med Sep, which the
         system reflects.

  For the three additional med seps that OSIRP lists on 9/30/09 which are correctly not
  listed in HRMS, that is likely due to a correction made after 9/30/09. If Post or
  CFO/VPS caught these errors (likely during the V-Year chart reconciliation the first
  few weeks of October), the system is dynamically updated. OSIPR data in the ET
  report is static, point-in-time. Additionally, OSIPR was unable to provide the Director
  of VPS with the 3 additional names in order to investigate. This is due to their data
  from PCVDBMS being overwritten when HRMS makes changes. The rationale for
  the discrepancy remains the same as was listed in the IG report. The report states that
  “The review was unable to account for three of the six anomalies in the FY 2009 ET
  data. The Director of CFO/VPS reported there could have been three additional
  resignation cables received from the post that were recorded incorrectly as medical
  separations and later corrected but not before OSIRP collected its data for the annual
  ET report”. CFO/VPS has certified all the data in HRMS is correct as of the follow-
  up in April 2010 and officially lists 10 Medical Separations for FY09. The report
  also states, “ET data is not corrected or revised following OSIRP’s data collection
  and reporting. Therefore, the office of CFO/VPS should determine how these five
  recording errors occurred”. Odyssey HRMS is the official repository of the
  termination data and is the most accurate data at any point in time that the Agency
  possesses as it is dynamic and not static, like the OSIRP report. It is unreasonable,
  due to with human error by either Post or CFO/VPS, to assume that a static report and
  dynamically updated system will always return the same result.

  Regarding part 2 of the recommendation: The incorrect data entry of the two
  Volunteers listed above (and possibly 0-3 of the “other anomalies”) was due to a
  careless employee, not lack of training. The staff person responsible for Togo had
  been placed on a Performance Improvement Plan, was not given a second tour, and
  has now left the Agency. This is not a pervasive issue within the department; it was
  limited to a specific individual who is no longer employed with Peace Corps. In
  response to this evaluation report, VPS will use the next weekly staff meeting to
  stress the importance of accurate data entry to all the staff.

  Additionally, any issue of this sort is likely to be fully resolved as the next phase of
  the VICA (Volunteer In Country Allowance) system will include a termination
  screen, where Post will be able to terminate Volunteers directly. The status of the
  termination will be determined by Post’s answers to a series of questions, which will
  eliminate or significantly reduce the likelihood that the wrong termination status is
  selected. The updates make through VICA to terminate a Volunteer will
  automatically update Odyssey HRMS, PCVDBMS, and VIDA. This phase is
  scheduled to be rolled out to all posts by the end of December 2010

  Documents included: The roll out of the VICA system will be the relevant
  documentation for this recommendation
  Date for Completion: December 2010
APPENDIX B



                               OIG COMMENTS
Management concurred with all 23 recommendations. Based on the documentation
provided, we closed 9 recommendations: numbers 1, 9, 12, 15, 18, 19, 20, 21, and 22. In
its response, management described actions it is taking or intends to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions or
that we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.
Fourteen recommendations, numbers 2, 3, 4, 5, 6, 7, 8, 10, 11, 13, 14, 16, 17 and 23,
remain open pending confirmation from the chief compliance officer that the
documentation reflected in OIG Analysis is received.


2: That the programming staff develop a tracking sheet to monitor site development
procedures and that staff complete one for each prospective site in advance of the
arrival of the Volunteer.

       Concur: Community Health and AIDS Prevention (CHAP) APCD will develop
       a tracking sheet. Natural Resources Management (NRM) and Girls Education and
       Empowerment (GEE) APCDs who are currently in PST will start to implement it.
       Small Enterprise Development (SED) and CHAP APCDs will use this tracking
       sheet in 2011.
       Documents to be submitted: Post will submit the site development tracking
       sheet.
       Date for Completion: November 2010
       OIG Analysis: Please submit a copy of the site development tracking sheet.

3: That the post: 1) develop housing criteria that reflects the appropriate differences
in rural and urban building standards, and; 2) ensure consistent implementation of
housing criteria by program managers.
       Concur: Post will hold a meeting with key parties to develop criteria and the
       PTO, who will provide over-site and management of program managers, will
       ensure consistent implementation of housing criteria. Post was recently given
       approval to hire a HCN programming and training officer (PTO).
       Documents to be submitted: Post will submit the housing criteria and report on
       the meeting with the APCDs.
       Date for Completion: December 2010
APPENDIX B


       OIG Analysis: Please submit the housing criteria and report on the meeting with
       the APCDs.


4: That the country director and program managers develop and implement a site
development plan that explores new community entries and increases community
and host-country support to Volunteer housing.
       Concur: CD and APCDs have discussed housing strategy and ways to have more
       community support. GEE and NRM APCDs have begun efforts. APCDs
       recognize the need to start site development early. A formal plan will be drafted
       by December 2010.
       Documents to be submitted: Post will submit the copy of the site development
       plan.
       Date for Completion: December 2010
       OIG Analysis: Please submit a copy of the site development plan.


5: That the post revise its Volunteer site development guidelines to ensure: 1) a
suitable contact person for the Volunteer is identified at each site; and, 2) that
multiple Volunteer work partners are identified as potential counterparts at each
site.
       Concur: The PTO, in conjunction with the APCDs, will create a site development
       template. APCDs will identify at least two counterparts. The PTO will review the
       description of each site and the number of counterparts identified for each new
       PCV.
       Documents to be submitted: Post will submit the site development template
       which identifies suitable contact people for each Volunteer as well as multiple
       partners and potential counterparts.
       Date for Completion: November 2010
       OIG Analysis: Please submit a copy of the site development template.

6: That the post establish a strategy and timeframe with goals and milestones for
completion of partner development goals.
       Concur: Post plans to hire a HCN PTO in Oct 2010. This individual will work
       with CD and APCDs to develop a strategy for enhancing its relationship with
       ministries and NGOs. CD and appropriate APCD will go visit ministries and
       NGOs to market PC/Togo.
       Documents to be submitted: Post will submit a strategy and timeframe with
       goals and milestones for completion of partner development goals.
       Date for Completion: December 2010
APPENDIX B


       OIG Analysis: Please submit a copy of the strategy and timeframe with goals and
       milestones for completion of partner development goals.



7: That the post establish a strategy and timeframe with goals and milestones for
completion of new or revised Memoranda of Understanding or project agreements.
       Concur: PTO and APCDs will develop strategy for completing and revising
       MOUs.
       Documents to be submitted: Post will submit a strategy and timeframe with
       goals and milestones for completion of new or revised MOUs or project
       agreements.
       Date for Completion: December 2010
       OIG Analysis: Please submit a copy of the strategy and timeframe with goals and
       milestones for completion of new or revised MOUs or project agreements. Please
       also report on activities undertaken to complete new or revised Memoranda of
       Understanding or project agreements.


8: That the post develop an annual calendar of Project Advisory Council activities,
engage with ministry personnel in regular project updates, and undertake activities
such as visits to Volunteer projects on a regular basis.

       Concur: PTO will coordinate an annual partner meeting and will work with
       APCDs and develop an annual report, which will be distributed to partners. As
       part of Post’s strategy (Recommendation #6) for enhancing its relationship with
       ministries and NGOs, the CD/PTO and appropriate APCD will visit and/or call
       key ministry contacts quarterly.
       Documents to be submitted: Post will submit an annual calendar of PAC
       activities.
       Date for Completion: December 2010
       OIG Analysis: Please submit a copy of the annual calendar of PAC activities, a
       copy of report(s) on quarterly contacts with ministry personnel, and a copy of the
       annual report distributed to partners.


10: That the post ensure all Small Project Assistance and Peace Corps Partnership
Program funds are distributed and accounted for in accordance with the
appropriate guidelines.

       Concur: In May and June 2010 the CD and OPSI’s PCPP Program Specialist
       (Africa) discussed the Manual Sections (MS720.3.3 & MS 204.3.8) that provide
APPENDIX B


       the guidance on gift acceptance for PCVs. Post will host OPSI’s PCPP Program
       Specialist, September 23-27, 2010, and she will conduct a training with staff who
       work with SPA and PCPP funds.
       Documents to be submitted: A report of the training conducted by OPSI PCPP
       Program Specialist.
       Date for Completion: September 2010
       OIG Analysis: Please submit a report of the training conducted by OPSI PCPP
       Program Specialist.



11: That the post provide training to all staff responsible for management or
oversight of the Small Project Assistance program.

       Concur: This information will be provided during the OPSI visit and training
       during September 23-27, 2010
       Documents to be submitted: A report of the SPA training.
       Date for Completion: September 2010
       OIG Analysis: Please submit a report of the SPA training provided during the
       OPSI visit and training during September 23-27, 2010.


13: That the post provide more local language training in pre-service training
programs.

       Concur: Post agrees that PCVs need to have more local language training. Post
       believes the best path forward for training volunteers in local languages is for
       volunteers to first have a solid understanding of French. Given that Togo is a
       multilingual country, most PCVs cannot learn French and a local language at the
       same time. Togo will be part of a new 4 week French immersion training pilot in
       FY11. This training will allow PCVs to engage longer in PST with basic French,
       enabling them to begin local language training at site. Post plans to conduct
       additional local language training during ISTs and APCDs will encourage PCVs
       to use funds to find local language tutors.
       Documents to be submitted: Post will submit a Copy of the IST schedule and a
       newsletter article, encouraging local language tutoring.
       Date for Completion: December 2010
       OIG Analysis: Please submit copies of the IST schedule to conduct additional
       local language training and the newsletter article encouraging local language
       tutoring.
APPENDIX B




14: That the post develops a ‘best practices’ tool to guide the Volunteers through the
process of identifying tutors and engaging in local language instruction at their sites.

       Concur: TM will contact other training managers and HQ’s Language & Cross
       Cultural Specialist for best practices on tutoring. This info will be shared with
       PCVs during IST and PCTs during PST.
       Documents to be submitted: Post will submit a copy of the best practices tool.
       Date for Completion: November 2010

       OIG Analysis: Please submit a copy of the best practices tool and describe how
       this information was shared with PCVs during IST and PCTs during PST.


16: That the Training of Trainers program include skill-building on cross-cultural
conflict management.

       Concur: TM will meet with Regional Advisor Kris Hoffer who has a background
       in conflict resolution and will request session designs, which will be included in
       the next TOT.
       Documents to be submitted: Post will submit a copy of the cross-cultural
       conflict training design.
       Date for Completion: January 2011
       OIG Analysis: Please submit a copy of the cross-cultural conflict training design.


17: That the country director monitor biannual Volunteer reporting to ensure: 1)
that all Volunteers meet reporting requirements; 2) that program staff provide
timely, substantive feedback to Volunteers.

       Concur: PC Togo has a biannual reporting system. Since her arrival in August of
       2009, CD has made biannual reporting a priority and has noticed a shift in on time
       reporting from the PCVs and feedback time from the APCDs. In October 2009,
       99%, of PCVs submitted their work reports, although many of them were late. In
       April 2010, 99% of PCVs submitted their reports in a timely manner.
       On both occasions, APCDs provided PCVs with individual feedback and group
       feedback. For the first response in October 2009, the APCDs were late in
       providing feedback. In April 2010, APCDs provided their PCVs with feedback
       within approximately 5 weeks of receiving their reports. With a renewed focus on
       biannual Volunteer reporting and staff feedback, the CD is confident that
       reporting requirements will continue to be met.
APPENDIX B


      Documents to be submitted: 1) Post will give a list of Volunteers verifying that
      PCVs have completed reporting requirements. 2) Post will provide copies of
      sample feedback.
      Date for Completion: September 2010
      OIG Analysis: Please submit a list of Volunteers verifying that PCVs have
      completed reporting requirements and copies of sample feedback.

23: That Office of Volunteer and Personal Services Contract Financial Services: 1)
determine the cause of PC/Togo reporting errors in the FY 2009 Early Termination
data; and, 2) implement corrective actions or additional training as warranted.

      Concur: CFO/VPS concurs with the recommendation.

      Regarding part 1 of the recommendation, at the time of the investigation follow-
      up in April 2010, CFO/VPS did all possible research; there is no new information
      to be gained.

      OSIRP reported 16 Medical Separations on September 30, 2009. During the
      program evaluation, PC/Togo reported 10 Medical Separations for FY 2009.
      When CFO/VPS was asked for the same number, the result from HRMS was 13
      Medical Separations. At this time in April 2010, the Director of VPS received the
      names of the 10 Volunteers who Post reported had medically separated. She
      cross-referenced the list from Post with the HRMS listing of Medical Separations
      and came to the following conclusion, which was reported back to the IG:

          •   H Moser - Documentation sent from Post indicated it was a SEP-ET, which is a
              resignation. It was a data entry error by a VPS staff member.
          • K Smith - Documentation sent from Post indicated it was a SEP-ET, which is a
              resignation. It was a data entry error by a VPS staff member.
      •   C Bradt – Documentation sent from Post clearly states it is a Med Sep, which the
          system reflects.

   For the three additional medical separations that OSIRP lists on 9/30/09 which are
   correctly not listed in HRMS, that is likely due to a correction made after 9/30/09. If
   Post or CFO/VPS caught these errors (likely during the V-Year chart reconciliation
   the first few weeks of October), the system is dynamically updated. OSIPR data in the
   ET report is static, point-in-time. Additionally, OSIPR was unable to provide the
   Director of VPS with the 3 additional names in order to investigate. This is due to
   their data from PCVDBMS being overwritten when HRMS makes changes. The
   rationale for the discrepancy remains the same as was listed in the IG report. The
   report states that “The review was unable to account for three of the six anomalies in
   the FY 2009 ET data. The Director of CFO/VPS reported there could have been three
   additional resignation cables received from the post that were recorded incorrectly as
   medical separations and later corrected but not before OSIRP collected its data for the
   annual ET report”. CFO/VPS has certified all the data in HRMS is correct as of the
APPENDIX B


  follow-up in April 2010 and officially lists 10 Medical Separations for FY09. The
  report also states, “ET data is not corrected or revised following OSIRP’s data
  collection and reporting. Therefore, the office of CFO/VPS should determine how
  these five recording errors occurred”. Odyssey HRMS is the official repository of the
  termination data and is the most accurate data at any point in time that the Agency
  possesses as it is dynamic and not static, like the OSIRP report. It is unreasonable,
  due to with human error by either Post or CFO/VPS, to assume that a static report and
  dynamically updated system will always return the same result.

  Regarding part 2 of the recommendation: The incorrect data entry of the two
  Volunteers listed above (and possibly 0-3 of the “other anomalies”) was due to a
  careless employee, not lack of training. The staff person responsible for Togo had
  been placed on a Performance Improvement Plan, was not given a second tour, and
  has now left the Agency. This is not a pervasive issue within the department; it was
  limited to a specific individual who is no longer employed with Peace Corps. In
  response to this evaluation report, VPS will use the next weekly staff meeting to
  stress the importance of accurate data entry to all the staff.

  Additionally, any issue of this sort is likely to be fully resolved as the next phase of
  the VICA (Volunteer in Country Allowance) system will include a termination
  screen, where Post will be able to terminate Volunteers directly. The status of the
  termination will be determined by Post’s answers to a series of questions, which will
  eliminate or significantly reduce the likelihood that the wrong termination status is
  selected. The updates make through VICA to terminate a Volunteer will
  automatically update Odyssey HRMS, PCVDBMS, and VIDA. This phase is
  scheduled to be rolled out to all posts by the end of December 2010

  Documents included: The roll out of the VICA system will be the relevant
  documentation for this recommendation
  Date for Completion: December 2010
  OIG Analysis: Please provide documentation that VICA has been rolled out and
    copies of screen shots that demonstrate the post’s selection options for recording
    PCV terminations.
APPENDIX C



             PROGRAM EVALUATION COMPLETION
                   AND OIG CONTACT

OIG CONTACT         Following issuance of the final report, a stakeholder
                    satisfaction survey will be distributed. If you wish to
                    comment on the quality or usefulness of this report to help
                    us improve our products, please e-mail Jim O’Keefe,
                    Assistant Inspector General for Evaluations, at
                    jokeefe@peacecorps.gov, or call (202) 692-2904.

STAFF               This program evaluation was conducted under the
ACKNOWLEDGEMENTS    direction of Jim O’Keefe, Assistant Inspector General for
                    Evaluations, and by Senior Evaluator Reuben Marshall.
                       REPORT FRAUD, WASTE, ABUSE,
                          AND MISMANAGEMENT



Fraud, waste, abuse, and mismanagement in government affect everyone
from Peace Corps Volunteers to agency employees to the general public. We
actively solicit allegations of inefficient and wasteful practices, fraud, and
abuse related to Peace Corps operations domestically or abroad. You can
report allegations to us in several ways, and you may remain anonymous.




Mail:            Peace Corps
                 Office of Inspector General
                 P.O. Box 57129
                 Washington, DC 20037-7129

Phone:           24-Hour Toll-Free:                  (800) 233-5874
                 Washington Metro Area:       (202) 692-2915


Fax:             (202) 692-2901

E-mail:          oig@peacecorps.gov
